              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Characterization Wells at Los Alamos
National Laboratory




DOE/IG-0703                              September 2005
CHARACTERIZATION WELLS AT LOS ALAMOS NATIONAL
LABORATORY



TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objectives            1

              Observations and Conclusions           2


              DETAILS OF FINDINGS

              Mud Rotary Drilling                    3

              Masking the Presence of Contaminants   4


              RECOMMENDATIONS                        6


              MANAGEMENT COMMENTS                    6


              INSPECTOR COMMENTS                     6


              APPENDICES

              A. Scope and Methodology               8

              B. Management Comments                 9
Overview

INTRODUCTION                       The Los Alamos National Laboratory (LANL), located on the
AND OBJECTIVES                     Pajarito Plateau in Northern New Mexico, has been in operation
                                   since the early 1940’s. LANL is a U.S. Department of Energy
                                   (DOE) research and development facility operated by the
                                   University of California. Throughout its history, LANL has
                                   conducted experimental research on the development of nuclear
                                   weapons and explosive materials that has resulted in the generation
                                   and disposal of a variety of hazardous, radioactive, and solid
                                   wastes. LANL has disposed of these wastes in septic systems, pits,
                                   surface impoundments, trenches, shafts, landfills, and waste piles
                                   at the facility. LANL has also discharged industrial wastewater
                                   and other waste into many of the canyons at the facility.

                                   Contaminants such as plutonium, americium, and tritium have
                                   been detected in soils and sediments at the facility and in alluvial
                                   groundwater beneath the facility. In 1998, LANL developed a
                                   Hydrogeologic Workplan that established the basis for
                                   characterizing the hydrogeologic system beneath the facility,
                                   determining whether the concentration of contaminants in
                                   groundwater exceeded regulatory limits, and determining if
                                   characterization information was sufficient for establishing a
                                   groundwater monitoring program. Implementation of the
                                   Workplan required the installation of 32 regional aquifer wells,
                                   commonly referred to as characterization wells, to characterize the
                                   hydrogeologic setting beneath the Pajarito Plateau.

                                   Consideration is being given to converting some or all of the
                                   LANL characterization wells to groundwater monitoring wells
                                   under a March 1, 2005, Compliance Order on Consent1 entered
                                   into by DOE, the New Mexico Environmental Department, and the
                                   University of California. The requirements of the Resource
                                   Conservation and Recovery Act (RCRA) for the construction of
                                   monitoring wells also apply to the construction of the
                                   characterization wells as established by the Workplan.

                                   The Office of Inspector General received an allegation that the
                                   wells constructed at LANL were not constructed in accordance
                                   with the requirements of RCRA. Because of significant problems
                                   associated with stuck casing, unstable boreholes, and lost
                                   circulation in the earliest wells that were constructed, subsequent

1
 This Order was issued pursuant to the New Mexico Hazardous Waste Act for the purpose of fully determining the
nature and extent of releases of contaminants at or from LANL and to identify, evaluate, and implement corrective
measures to prevent or mitigate the migration of contaminants from the site. The requirements of the Order do not
apply to radionuclides.



Page 1                                                                     Characterization Wells at Los
                                                                           Alamos National Laboratory
                   well construction included the use of muds and other drilling
                   fluids. It was specifically alleged that (1) the use of mud rotary
                   drilling methods violated RCRA; and (2) the use of muds and other
                   drilling fluids during well construction had an adverse affect on
                   groundwater chemistry, masking the presence of radionuclides and
                   causing groundwater contamination data to be unreliable.

                   The objectives of our inspection were to determine if: (1) the use
                   of mud rotary drilling methods during the construction of the wells
                   at LANL violated RCRA; and (2) muds and other drilling fluids
                   adversely affected groundwater chemistry and compromised the
                   reliability of groundwater contamination data collected by LANL.

OBSERVATIONS AND   We concluded that the allegations were partially substantiated.
CONCLUSIONS        Specifically, we found that:

                   •   LANL’s use of mud rotary drilling methods during well
                       construction was allowable under applicable RCRA guidance,
                       as well as the Compliance Order on Consent. However, LANL
                       did not adhere to specific constraints established in the RCRA
                       guidance when using muds and other drilling fluids, and, as a
                       result, LANL could not assure that certain residual drilling
                       fluids were fully removed; and

                   •   Muds and other drilling fluids that remained in certain wells
                       after construction created a chemical environment that could
                       mask the presence of radionuclide contamination and
                       compromise the reliability of groundwater contamination data.

                   We note that DOE is voluntarily providing radionuclide
                   contamination data to the State of New Mexico under a
                   long-standing DOE policy. This data has been collected in
                   accordance with procedures DOE has developed pursuant to the
                   Atomic Energy Act and its implementing regulations, orders, and
                   guidance documents. The current requirements for a groundwater
                   surveillance monitoring program are found in DOE O 450.1,
                   “Environmental Protection Program,” which LANL has until
                   December 31, 2005, to implement. As LANL works to meet this
                   deadline, we believe that the Laboratory should, as the
                   Hydrogeologic Workplan wells are converted to monitoring wells,
                   ensure that monitoring data are reliable. We also believe that
                   particular attention should be given to well development and
                   purging methods, the quality of radionuclide data, and any
                   qualifications on that data.




Page 2                                              Observations and Conclusions
Details of Findings

MUD ROTARY            We found that LANL’s use of mud rotary drilling methods during
DRILLING              well construction was allowable under applicable RCRA guidance,
                      as well as the Compliance Order on Consent. However, LANL did
                      not adhere to specific constraints established in the RCRA
                      guidance when using muds and other drilling fluids, and, as a
                      result, LANL could not assure that certain residual drilling fluids
                      were fully removed.

                      According to the Environmental Protection Agency (EPA) Regional
                      Office in Dallas, Texas, a document titled “RCRA Ground-Water
                      Monitoring: Draft Technical Guidance” (guidance) addresses
                      monitoring well design and construction. The RCRA guidance is
                      used to meet the requirements of 40 CFR 264.97, “General
                      ground-water monitoring requirements,” and addresses nine
                      commonly used methods for drilling groundwater monitoring wells.
                      Chapter Six of the guidance, “Monitoring Well Design and
                      Construction,” identifies mud rotary drilling as one of those
                      commonly used methods.

                      However, the guidance recognized that “. . . mud rotary [drilling]
                      creates a high potential for affecting aquifer characteristics and
                      groundwater quality.” As a result, the guidance provided specific
                      constraints on the use of mud rotary drilling, stating that “If the mud
                      rotary method is used, the drilling mud(s) should not affect the
                      chemistry of ground-water samples from the borehole, or adversely
                      impact the operation of the well.” In addition, the guidance stated that
                      “Drilling fluids, drilling fluid additives, or lubricants that impact the
                      analysis of hazardous constituents in ground-water samples should not
                      be used.” Further, LANL’s Hazardous Waste Permit, Module VIII,
                      “Hazardous and Solid Waste Amendments to RCRA,” states
                      “Development procedures include purging of the well until
                      contaminants introduced during drilling can be assured of being
                      removed.” Module VIII is also referenced in the Workplan.

                      In the case of several of the wells constructed to date at LANL, the
                      above required assurance was not provided. We determined that
                      certain wells were constructed without muds and other drilling fluids
                      being totally purged. Documentation indicates that LANL used muds
                      and other drilling fluids during the drilling of 24 of the 32
                      characterizations wells. For example, 28,250 pounds of bentonite clay
                      were used during the drilling of well R-14, and 51,100 pounds of
                      finely ground sodium bentonite (Quick Gel) were used during the
                      drilling of well R-16.




Page 3                                                               Details of Findings
                                    LANL stated that they found it necessary to use drilling fluids at
                                    certain well locations in order to construct the desired wells given the
                                    extreme depths and complex geology encountered and that not using
                                    drilling fluids would result in failure to establish wells in certain
                                    locations. LANL stated that the majority of the wells were not
                                    impacted by residual muds and drilling fluids, but LANL recognized
                                    that muds and drilling fluids had consequences, which are discussed in
                                    the next section, and/or were not completely removed at several
                                    locations, to include wells R-7, R-12, R-16, R-19, and R-22.

MASKING THE                         We identified through documentation reviews that muds and other
PRESENCE OF                         drilling fluids that remained in certain wells after construction created
CONTAMINANTS                        a chemical environment that could mask the presence of radionuclide
                                    contamination and compromise the reliability of groundwater
                                    contamination data. The RCRA guidance specifically states that
                                    bentonite muds, which were used during the drilling of certain wells at
                                    LANL, may adsorb metals, potentially reducing contaminant
                                    concentrations and affecting the reliability of sampling results. In
                                    addition, in a December 23, 1999, report, a team of experts known as
                                    the External Advisory Group (EAG)2 found that the use of muds
                                    during drilling “carries the risk of adsorbing contaminants . . . onto the
                                    bentonite that penetrates into pore space around the well screen and is
                                    not removed by well development.” The EAG stated that “Should this
                                    occur, it could result in reduced concentrations or non-detects on
                                    contaminants that are actually present in the vicinity of the well.” The
                                    EAG reported in December 1999 that “The use of mud rotary drilling
                                    techniques is largely inappropriate for the goal of the LANL
                                    Hydrogeologic Workplan.” In subsequent reports, however, the EAG
                                    did recognize that drilling through certain “stratigraphic” zones might
                                    not be possible without the use of drilling fluids under some
                                    circumstances and that “[i]ncreasing the number of tools in the well
                                    drilling ‘toolbox’ by adding a mud rotary drilling option” was a
                                    positive thing.

                                    A February 8, 2002, report entitled “Assessment of Regional
                                    Aquifer Well-Development Techniques at Los Alamos National
                                    Laboratory and Impacts on Sampling” that was prepared by
                                    independent consultants concluded that “Improving the
                                    development [e.g. process to repair damage done during drilling]
                                    would be useful in particular because the boreholes seem to be
                                    retaining quantities of drilling fluid residues that are impacting the
                                    quality of collected groundwater samples.” This assessment stated
                                    that changes in groundwater chemistry “result in poor

2
    The EAG was established to review activities conducted under the Hydrogeologic Workplan.



Page 4                                                                                  Details of Findings
         understanding or misinterpretation of the presence of contaminants
         and their transport and fate.”

         Also, a September 2004 LANL assessment of concerns about the
         quality of groundwater data obtained from the wells at LANL
         stated that organic-based drilling fluids provided a nutrient source
         that allows naturally occurring microbes to grow and that the
         consumption of the organic portions of the drilling fluid by these
         microbes changed the groundwater chemistry. As a result, metals
         such as plutonium, strontium, and americium are adsorbed onto
         precipitates created by the changed chemical environment, so
         decreased concentrations of these radionuclides would occur if
         present in the groundwater.

         LANL has recognized that wells R-7 and R-22 had uranium
         concentrations below the background level of uranium in the
         groundwater. LANL stated that these “very low uranium values
         suggest uranium precipitation and are most likely caused by the
         presence of residual drilling fluids.” As a result, LANL has
         recognized that data from certain wells are not yet reliable due to
         the presence of residual drilling fluids. Documentation suggests
         that the amount of time required for the affect of drilling fluids on
         the reliability of contamination data to dissipate and for the
         groundwater chemistry to return to its pre-drilling condition ranges
         from 15 months to 10 years.

         DOE is voluntarily providing radionuclide contamination data to the
         State of New Mexico under a long-standing DOE policy described in
         a 1998 agreement with the National Association of Attorneys
         General and a November 2000 Agreement-in-Principle between
         DOE and the State of New Mexico. This data, which is provided in
         annual reports, has been collected in accordance with the procedures
         in DOE implementing regulations, orders, and guidance documents.
         The current requirements and guidance are found in DOE O 450.1
         and its associated guide, DOE G 450.1-6, “Groundwater
         Surveillance Monitoring Implementation Guide for Use with DOE O
         450.1.” The guide states that each site should prepare a site-wide
         groundwater surveillance monitoring plan and that the plan should
         “indicate how data is classified according to any qualifications on its
         accuracy and precision.” Based upon the results of our review, we
         believe that, as DOE voluntarily provides radionuclide
         contamination data to the State of New Mexico, it should also
         provide any applicable qualifications on the accuracy and precision
         of contamination data that comes from wells where the affects of
         residual drilling fluids are or may be present.



Page 5                                                  Details of Findings
RECOMMENDATIONS   We recommend that the Manager, Los Alamos Site Office, ensure
                  that:

                  1. As the Hydrogeologic Workplan wells are converted to
                     monitoring wells under the Compliance Order on Consent,
                     LANL should ensure that monitoring data are reliable.

                  2. If LANL uses mud rotary drilling techniques for any future
                     installation of monitoring wells constructed under the
                     Compliance Order on Consent, LANL strictly follows all
                     RCRA guidance on the use of these techniques.

                  3. As LANL implements a groundwater surveillance monitoring
                     program pursuant to DOE O 450.1 and DOE G 450.1-6 by
                     December 31, 2005, particular attention is given to well
                     development and purging methods, the quality of radionuclide
                     data, and any qualifications on that data.

                  4. The voluntary reporting of radionuclide contamination data
                     contains appropriate qualifications on the accuracy and
                     precision of that data, with particular attention to data that may
                     be impacted by the effects of residual muds and other drilling
                     fluids.

MANAGEMENT        In comments on the draft report, management stated that the
COMMENTS          recommendations contained in the draft report were appropriate
                  and would be implemented. Management also stated that all wells
                  were purged under specific criteria in accordance with the
                  guidance contained in RCRA, but despite this, “in certain screened
                  intervals residual drilling fluids could not be fully removed during
                  the development process.” Management further stated that “The
                  potential impacts of these fluids and the effectiveness of additional
                  development on their removal are currently being evaluated.”
                  Management’s response also included an attachment with technical
                  comments. Management’s comments are included in their entirety
                  at Appendix B.

INSPECTOR         We found management’s comments to be responsive to the report
COMMENTS          recommendations. Regarding management’s comments about
                  purging drilling fluids, although LANL took action to purge the
                  wells, LANL acknowledged its efforts were not effective in all
                  cases. RCRA guidance clearly states that “If the mud rotary
                  method is used, the drilling mud(s) should not affect the chemistry
                  of ground-water samples from the borehole, or adversely impact



Page 6                                    Recommendations
`                                         Management and Inspector Comments
         the operation of the well” and “Drilling fluids, drilling fluid
         additives, or lubricants that impact the analysis of hazardous
         constituents in ground-water samples should not be used.” In
         addition, the LANL Hazardous Waste Permit states that
         “Development procedures include purging of the well until
         contaminants introduced during drilling can be assured of being
         removed.” In the case of certain wells at LANL, (1) muds and
         drilling fluids did affect the chemistry of ground-water, (2) drilling
         fluids, drilling fluid additives, or lubricants that impact the analysis
         of hazardous constituents in ground-water samples were used, and
         (3) well development procedures, including purging, did not assure
         that contaminants introduced during drilling were totally removed.

         Management’s technical comments were addressed, as appropriate,
         in the body of this report.




Page 7                                                  Inspector Comments
Appendix A

SCOPE AND     We completed our initial inspection fieldwork in February 2005.
METHODOLOGY   We interviewed LANL officials regarding the LANL
              characterization well program and reviewed DOE and LANL
              policies, procedures, and records regarding well construction, use
              of muds and other drilling fluids, and drilling techniques and
              methods. We also interviewed LANL, DOE, and State of New
              Mexico officials regarding implementation of the Hydrogeologic
              Workplan. In addition, we reviewed RCRA and EPA guidance
              and DOE orders regarding groundwater monitoring and
              environmental protection.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 8                                                Scope and Methodology
Appendix B




Page 9       Management Comments
Appendix B




Page 10      Management Comments
Appendix B




Page 11      Management Comments
Appendix B




Page 12      Management Comments
Appendix B




Page 13      Management Comments
Appendix B




Page 14      Management Comments
                                                                    IG Report No. DOE/IG-0703

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
